    DEPARTMENT OF HEALTH &. HUMAN SERVI.CES	                                         Office of Inspector General

                                                                                     Washington, D.C. 20201


                                         OCT 2 2 2009




TO:	            Charlene Frizzera
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           stuart Wright
                Deputy Inspector General
                  for Evaluation and Inspections


SUBJECT:	       Memorandum Report: "Beneficiary Appeals in Medicare Advantage,"
                OEI-OI-08-00280


This~emorandum report     provides information about appeals made by beneficiaries in Medicare
Advantage (MA). Specifically, it provides information on: (1) outcomes of organization
determinations and first-and second-level appeals of beneficiaries enrolled in MA, (2) Medicare
Advantage Organization (MAO) compliance with timeliness requirements for determinations
and appeals, and (3) the Centers for Medicare & Medicaid Services (CMS) oversight of the MA
appeals system.

We found that MAOs make the vast majority of organization determinations in favor of
beneficiaries, and deny very few. Of these denials, called adverse determinations, very few were
appealed, and upon appeal, MAOs overturned more than half of their own denials. We also
found thatMAOs decided 23 percent of adverse expedited determinations, and 18 percent of
appeals, late. At the second level of appeal, the Independent Review Entity (IRE) overturned
about one in five adverse MAO reconsiderations. Finally, CMS'identified many MA contracts
that failed to meet appeals-related audit elements.

Our review also raises questions and concerns. We found that beneficiaries appealed fewer than
1 in 10 adverse determinations. Although no rate of appeal is expected or correct, further study
could examine factors that might explain this rate. Further study could also identify differences
between denials that beneficiaries appeal and those that beneficiaries do not appeal. Particularly
concerning are the problems with timeliness in processing adverse expedited determinations and
the higher IRE overturn rate of expedited cases. Because expedited cases concern time-sensitive
care, it is important that such care be delivered with minimal delays.




OEI-O 1-08-00280	                     Beneficiary Appeals in Medicare Advantage
Page 2 – Charlene Frizzera


BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 made several
important changes to Medicare managed care, including increasing payments to MAOs and
renaming the program “Medicare Advantage.” 1 As of April 2009, 10.9 million Medicare
beneficiaries (about 22 percent of all Medicare beneficiaries) were enrolled in 752 MA
contracts. 2 These numbers represent increases of 106 percent and 164 percent, respectively,
from 2003, when MA was enacted. An MAO, the parent organization, may hold multiple
managed care contracts, which are agreements to provide MA services across a specified
geographic area. Each contract may include multiple plans.

A capitated payment system, such as that used by MAOs, could create fiscal incentives to
underserve beneficiaries. 3 A properly functioning appeals system provides a vital safeguard to
protect against those incentives.

MA Appeals Process
The Social Security Act states that MAOs must have a procedure to determine whether a
beneficiary is entitled to receive health services and the amount, if any, a beneficiary is required
to pay for these services. 4 It also mandates that MAOs offer beneficiaries the right to appeal an
adverse determination. 5 Further, it requires that the Secretary of the Department of Health and
Human Services contract with an IRE to review second-level appeals in cases where an MAO
has returned an adverse decision to a beneficiary’s initial appeal. 6

If the IRE upholds the MAO’s decision, a beneficiary can continue the appeal with an
Administrative Law Judge, then with the Medicare Appeals Council, and finally, via judicial
review. 7 MAOs can appeal Administrative Law Judge decisions and any higher-level
decisions. 8

Organization Determination. An organization determination is any decision made by an MAO
about whether a beneficiary is entitled to receive health services and the amount, if any, a
beneficiary is required to pay for these services. 9 For example, MAOs make organization

1 P.L. No. 108-173 §§ 211 and 201.
2 CMS, “Monthly Contract and Enrollment Summary Report.” Available online at
http://www.cms.hhs.gov/MCRAdvPartDEnrolData/. Accessed on July 14, 2009.
3 Government Accountability Office, GAO/T-HRD-93-10, “Medicaid: States Turn to Managed Care to Improve

Access and Control Costs,” 1993. Available online at http://archive.gao.gov/d42t14/148756.pdf. Accessed on
July 14, 2009.
4 Social Security Act, § 1852(g)(1)(A).
5 Social Security Act, § 1852(g)(2)(A).
6 Social Security Act, § 1852(g)(4).
7 Social Security Act, § 1852(g)(5), 42 CFR §§ 422.600, 422.608, and 422.612.
8 42 CFR §§ 422.608 and 422.612.
9 42 CFR § 422.566(a).




OEI-01-08-00280                           Beneficiary Appeals in Medicare Advantage
Page 3 – Charlene Frizzera


determinations about whether to pay for temporarily out of the area renal dialysis services,
emergency services, poststabilization care, or urgently needed services; whether to pay
for any other health services furnished by a provider other than the MAO that the enrollee
believes are covered under Medicare (or, if not covered under Medicare, should have been
furnished, arranged for, or reimbursed by the MAO); or discontinuation or reduction of a service
if the enrollee believes that continuation of the service is medically necessary. 10

The parties that can request an organization determination are: the beneficiary or an authorized
representative, the beneficiary’s provider, or the legal representative of a deceased beneficiary’s
estate (in this memorandum report we refer to all of these parties as the beneficiary). 11

Beneficiaries can request three types of organization determinations: a standard service request,
an expedited service request, and a payment request. 12 Organization determinations have three
possible outcomes for the beneficiary: favorable, partially adverse, or wholly adverse. When the
MAO notifies a beneficiary of a partially or wholly adverse determination, it must inform the
beneficiary, in writing, of the right to appeal a wholly or partially adverse determination. 13

Table 1 shows the timeframes by which MAOs must provide their decisions on organization
determinations. 14 If an MAO fails to meet these timeframes, the determination is considered
adverse to the beneficiary and the beneficiary may appeal. 15

Table 1: Timing for Organization Determinations and Appeals
                                              Organization          First-Level      Second-Level
     Type of Request
                                             Determination              Appeal            Appeal

     Standard Service Request                      14 days             30 days             30 days

     Expedited Service Request                    72 hours            72 hours             72 hours

                                  In accordance with Prompt
     Payment Request                                                   60 days             60 days
                                        Payment Standards*
 * See 42 CFR § 422.520.




10 42 CFR § 422.566(b).
11 42 CFR § 422.566(c)(1)
12 42 CFR §§ 422.568(a), (b), and 422.572.
13 Social Security Act, § 1852(g)(1)(B), and CMS, “Medicare Managed Care Manual,” Pub. No. 100-16, ch. 13,

§ 40.2.2.
14 42 CFR §§ 422.568(a), 422.568(b), and 422.572(a). For standard and expedited service requests, an MAO must
make its determination and notify the beneficiary as expeditiously as the beneficiary’s health requires, but no later
than the timeframes set forth in Table 1. 42 CFR §§ 422.568(a) and 422.572(b) allow for an extension to the
timeframes under certain circumstances.
15 42 CFR § 422.568(f).




OEI-01-08-00280                               Beneficiary Appeals in Medicare Advantage
Page 4 – Charlene Frizzera


First-Level Appeal. Beneficiaries have 60 days to appeal an MAO’s adverse organization
determination. 16 The same parties that can request a determination can also file an appeal with
the MAO. 17 Appeals, like organization determinations, fall into one of these three categories:

•    Standard Service Request: A beneficiary can appeal an MAO’s refusal to authorize
     provision of a service. 18

•    Expedited Service Request: A beneficiary or a physician may request an expedited
     reconsideration of a determination. 19 The MAO does not have to grant a beneficiary’s
     request for an expedited reconsideration, unless the MAO determines that the standard
     timeframe could jeopardize the life or health of the beneficiary or the beneficiary’s ability to
     regain maximum function. 20 However, if a physician requests or supports an expedited
     reconsideration and states that the standard timeframe could jeopardize the life or health of a
     beneficiary or the beneficiary’s ability to regain maximum function, the MAO must expedite
     the reconsideration. 21

•    Payment Request: A beneficiary can appeal the MAO’s denial of payment for a service that
     a provider has already performed. 22

Table 1 also shows the timeframes by which MAOs must provide their decisions on first-level
appeals. 23

The MAO must designate a person other than the one involved in making the organization
determination to decide the outcome of the appeal. 24 This outcome is called a reconsideration.
The MAO’s reconsideration is either favorable, partially adverse, or wholly adverse to the
beneficiary. If the reconsideration is partially or wholly adverse, the MAO must forward it to the
IRE. 25 The MAO must also notify the beneficiary that it has forwarded the case. 26




16 42 CFR § 422.582(b).
17 42 CFR § 422.578.
18 42 CFR § 422.590(a).
19 42 CFR § 422.584(a).
20 42 CFR § 422.584(c)(2)(i).
21 42 CFR § 422.584(c)(2)(ii).
22 42 CFR § 422.590(b).
23 42 CFR §§ 422.590(a), 422.590(b), and 422.590(d). For standard and expedited service requests, an MAO must

make its reconsideration as expeditiously as the beneficiary’s health requires, but no later than the timeframes set
forth in Table 1. 42 CFR §§ 422.590(a) and 422.590(d)(2) allow for an extension to the timeframes under certain
circumstances.
24 42 CFR § 422.590(g).
25 42 CFR §§ 422.590(a)(2), (b)(2), and (d)(5).
26 42 CFR § 422.590(e).




OEI-01-08-00280                              Beneficiary Appeals in Medicare Advantage
Page 5 – Charlene Frizzera


If an MAO does not provide the beneficiary with a decision within the specified time, the
outcome of the case is considered to be adverse to the beneficiary, and the MAO must forward
the case to the IRE. 27 The IRE then reviews the case as it would any partial or wholly adverse
reconsideration.

Second-Level Appeal. CMS currently contracts with Maximus Federal Services, Inc., as the IRE.
The IRE must review wholly or partially adverse MAO reconsiderations. 28 The IRE can either
overturn, partially overturn, or uphold the MAO’s reconsideration. When it has made its
decision, the IRE must notify the beneficiary, the MAO, and CMS. 29 If the IRE overturns the
MAO’s reconsideration, the MAO then must act within certain timeframes. The IRE can also
dismiss the appeal under certain conditions: for example, if the appeal is brought by a party with
no standing to do so, if it was not filed timely, or if a preservice appeal has become moot because
a beneficiary received the service. 30 MAOs must submit these cases to the IRE; they do not have
the authority to dismiss them on their own. Table 1 also shows the timeframes by which the IRE
must provide decisions on second-level appeals. 31

CMS Oversight of MA Appeals Process
CMS oversees MAOs’ performance in the appeals process in two ways: through audits of
MAOs and through data submitted by MAOs and the IRE. CMS regional offices are responsible
for ongoing MAO oversight.

Audits. Prior to 2007, CMS audited every Part C contract every 3 years. However, resource
constraints and the growth in the number of MA contracts necessitated changes to this approach.
Beginning in 2007, CMS implemented a risk-based approach to identify contracts for audit.
These contracts are audited by CMS regional staff. Regional staff can also recommend that
contracts receive focused, or for-cause, audits.

CMS also uses an assessment tool called the Targeted Appeals Monitoring System to select
contracts for audit, by identifying MA plans that are outliers in performance in processing
appeals. This system uses data from the IRE, as well as specific appeals-related questions from
beneficiary surveys.

CMS’s annual audit strategy details the specific elements that must be reviewed in every routine
audit for that year (CMS regional auditors can request additional elements be included during an

27 42 CFR §§ 422.590(c) and (f).
28 42 CFR § 422.592(a).
29 42 CFR § 422.594(a).
30 Maximus Federal Services, Inc., Medicare Advantage Organization Reconsideration Process Manual, §§ 4.2.5
and 4.7. CMS, “Medicare Managed Care Manual,” Pub. No. 100-16, ch. 13, § 70.7.5.
31 Medicare Part C Qualified Independent Contractor Task Order Statement of Work, § I.A.3. For standard and
expedited service requests, the IRE must make its reconsideration as expeditiously as the beneficiary’s health
requires, but no later than the timeframes set forth in Table 1. Section I.A.3 of the Medicare Part C Qualified
Independent Contractor Task Order Statement of Work allows for an extension to the timeframes under certain
circumstances.


OEI-01-08-00280                             Beneficiary Appeals in Medicare Advantage
Page 6 – Charlene Frizzera


audit). Specific appeals-related elements include whether MAOs are: meeting timeliness
requirements for making organization determinations and reconsiderations, meeting
documentation requirements, and designating appropriate MAO staff to decide appeals.

Data submitted by MAOs and the IRE to CMS. Upon request, MAOs must provide beneficiaries
with aggregate appeals data including the total number of appeals per 1,000 enrollees as well as
the outcome of those appeals. 32 MAOs should provide informational copies of these data to the
appropriate CMS regional office. 33 In 2009, CMS began requiring MAOs to submit the number
and outcomes of organization determinations and reconsiderations. 34

The IRE submits reports to CMS that include aggregate MAO appeals data on an ongoing basis.
These reports include timeliness of MAO organization determinations and reconsiderations, as
well as MAO compliance with the IRE’s decisions. The reports are derived from the Medicare
Appeals System (MAS), a CMS system containing appeals data.

When an MAO makes an adverse reconsideration, it forwards descriptive case information to the
IRE. The IRE staff enters this information, without verification, into the MAS. They also enter
second-level appeals data, such as date and disposition of the appeal, into the MAS.

METHODOLOGY

Scope
This evaluation is national in scope. We analyzed data on service-related organization
determinations made from October 1 to December 31, 2007, and service-related appeals made
subsequent to adverse determinations from that timeframe. We did not analyze data on payment
determinations or reconsiderations. We also analyzed data on second-level service appeals
reviewed by the IRE in which the original determination date was between October 1 and
December 31, 2007.

Data Sources
MAO data. To obtain data on organization determinations and first-level appeals, we drew a
stratified random sample of 105 MA contracts from the universe of 505 MA contracts in the
50 States and District of Columbia as of October 2007. We excluded demonstration contracts
and contracts not subject to the MA appeals requirements. We stratified the 505 contracts based
on enrollment:

•    high-enrollment contracts: all contracts with more than 60,000 beneficiaries
     (25 contracts, all included in the sample);


32 CMS, “Medicare Managed Care Manual,” Pub. No. 100-16, ch. 13, §§ 170 and 170.5.1.
33 Ibid., § 170.5.
34 CMS, “Medicare Part C Plan Reporting Requirements Technical Specifications Document,” Version: July 21,
2009.


OEI-01-08-00280                           Beneficiary Appeals in Medicare Advantage
Page 7 – Charlene Frizzera


•    medium-enrollment contracts: contracts with 10,001 to 60,000 beneficiaries
     (40 contracts sampled out of a universe of 136); and

•    low-enrollment contracts: contracts with 10,000 or fewer beneficiaries (40 contracts sampled
     out of a universe of 344).

IRE data. We analyzed data on second-level appeals from the MAS. We also conducted
structured interviews with IRE staff.

CMS data. We analyzed data on audits of MA contracts and summary data on corrective action
plans. We also conducted structured interviews with staff at five purposively selected CMS
regional offices. We selected the offices based on geographic diversity.

Data Collection
MAO data. To obtain data on organization determinations and first-level appeals, we sent each
MAO in our sample a data request. We attempted to contact nonresponsive MAOs three times in
writing, and once by telephone, to obtain data. We received data for 101 of the 105 contracts in
our sample. Of the four that did not submit data, we dropped two contracts that served
dual-eligible populations, effectively reducing our sample to 103 contracts. The beneficiaries
from those two contracts could have utilized the Medicaid appeals process, which is outside the
scope of this study. Of the remaining 103 contracts, 2 did not respond to our request for data,
yielding a 98-percent response rate. 35 We allowed MAOs to report aggregate counts of
favorable organization determinations.

IRE data. We obtained the MAS data from CMS. We also visited the IRE’s office in Victor,
NY, where it reviews the majority of second-level MA appeals, and conducted structured
interviews with staff there.

CMS data. We obtained data from CMS on the number of audits conducted in 2007 and 2008, as
well as data on corrective action plans resulting from those audits. We also conducted structured
interviews with staff at five CMS regional offices, by telephone and in person.

Data Analysis
MAO data. We concatenated all the data submissions from each MAO into two analytic files,
one for organization determinations and one for appeals. We then analyzed each file in SAS.
Some MAOs provided data outside the scope of our review. Because some MAOs submitted
data outside our requested timeframe, we limited the organization determinations to those
decided between October 1 and December 31, 2007. Similarly, we limited reconsiderations to
those requested between October 1, 2007, and February 29, 2008, (this latter date corresponds to
the 60-day limit on appeals of adverse determinations in our requested timeframe). 36 To

35 We have sent CMS information regarding these two contracts under separate cover.
36 In limiting reconsiderations by date, we recognize that some could stem from organization determinations made
prior to October 1, 2007.


OEI-01-08-00280                             Beneficiary Appeals in Medicare Advantage
Page 8 – Charlene Frizzera


determine the timeliness of determinations and appeals, we compared the request date with the
decision date. We weighted the results of our analysis based on the strata described above,
making them projectable to the universe of MA contracts. See Appendix A for confidence
intervals and point estimates for the results of our analysis of MAO data.

IRE data. We analyzed MAS data on outcomes of second-level appeals. To maintain
consistency with the MAO data, we only analyzed appeals associated with contracts in the
universe from which we drew our sample. We analyzed all appeals from this universe. The IRE
reviewed 2,212 service-related appeals that had an original determination date between
October 1 and December 31, 2007. It dismissed 223 appeals, beneficiaries withdrew 91 appeals,
and disposition data were missing for 2 appeals. Our analysis includes the remaining
1,896 appeals. The numbers of appeals reviewed by the IRE does not match the number of
adverse reconsiderations made by MAOs. This discrepancy is likely because we analyzed the
universe of data for IRE appeals, whereas our analysis of MAO data comes from a sample of
contracts, with projected results.

CMS data. We analyzed the number of contracts CMS audited in 2007 and 2008. We matched
data on contracts audited with data on unmet audit elements and corrective action plans. We
analyzed elements related to organization determinations and reconsiderations as specified in
“Chapter 13: Claims, Organization Determinations, Appeals and Grievances” of CMS’s
Medicare Advantage Audit Guide Version 4.

Limitations
We did not independently verify any of the information submitted by MAOs or in the MAS.
Further, we cannot verify that MAOs provided data on all organization determinations in our
requested timeframe, or that they provided data on all reconsiderations associated with adverse
determinations. Though we requested that MAOs provide only reconsiderations of adverse
determinations that were made between October 1 and December 31, 2007, we did not match
reconsiderations to their initial determinations. We did not verify whether MAOs forwarded all
adverse reconsiderations to the IRE. Our analysis of MAO timeliness did not include whether or
not the MAO received an extension. Finally, because we allowed MAOs to submit aggregate
counts of favorable organization determinations, we could not analyze their timeliness.

Standards
This study was conducted in accordance with the “Quality Standards for Inspections” approved
by the Council of the Inspectors General on Integrity and Efficiency.




OEI-01-08-00280                      Beneficiary Appeals in Medicare Advantage
Page 9 – Charlene Frizzera


RESULTS

MAOs decided the vast majority of organization determinations in favor of beneficiaries;
they denied very few
MAOs processed over 3.2 million organization determinations from October 1 to
December 31, 2007. High-enrollment contracts processed about 1.3 million determinations,
medium-enrollment contracts processed about 1.6 million, and low-enrollment contracts
processed about 400,000. Overall, MAOs decided 98 percent of organization determinations in
favor of beneficiaries, with minimal variation by contract enrollment. See Table 2 for the
disposition of organization determinations.


                        Table 2: Outcome of Organization Determinations
                                                                     Number of             Percentage of
                         Disposition                               Organization             Organization
                                                                 Determinations           Determinations

                         Favorable to member                            3,196,469                        97.8%

                         Wholly adverse to member                           65,430                       2.0%

                         Partially adverse to member                         7,593                       0.2%

                           Overall total                              3,269,492                      100%

                         Source: Office of Inspector General (OIG) analysis of MA contract data, 2009.



Of the more than 3.2 million determinations MAOs processed, just over 73,000 were wholly or
partially adverse to beneficiaries. Standard determinations comprised 93 percent of these
denials; 7 percent were expedited.

Although most denials were timely, MAOs decided 23 percent of adverse expedited
determinations late. MAOs must process expedited service requests within 72 hours. 37
Expedited service requests are those in which the MAO or the beneficiary’s physician
determines that the standard 14-day timeframe could jeopardize the life or health of the
beneficiary or the beneficiary’s ability to regain maximum function. 38 Our analysis does not
examine whether the MAO received an extension to the mandated timeframe.

In contrast with expedited denials, MAOs processed only 4 percent of standard service denials
late. Of these late denials, one in four was more than 16 days late. Because the timeliness
threshold is 14 days, this means at least 1 month had elapsed since the original service request.




37   42 CFR § 422.572(a).
38   42 CFR § 422.570(c)(2).


OEI-01-08-00280                                     Beneficiary Appeals in Medicare Advantage
Page 10 – Charlene Frizzera


Of those adverse organization determinations, very few were appealed, and upon appeal,
MAOs overturned more than half of their own denials
Beneficiaries can appeal a wholly adverse or partially adverse organization determination made
by the MAO. Of the 73,023 adverse determinations, MAOs received only 5,478 appeals
(8 percent). However, when beneficiaries did appeal, MAOs overturned their own denial
54 percent of the time, and partially overturned an additional 2 percent of denials (see Table 3).
Beneficiaries appealed 5 percent of the standard service-related determinations that MAOs
denied, versus 35 percent of adverse expedited determinations.

                   Table 3: Outcome of First-Level Appeals (Reconsiderations)
                                                                    Number of
                                                                                   Percentage of First-
                     Disposition                                    First-Level
                                                                                        Level Appeals
                                                                       Appeals

                     Favorable to member                                   2,966                54.1%

                     Wholly adverse to member                              2,428                44.3%

                     Partially adverse to member                              84                  1.5%

                       Overall total                                       5,478               100%*
                     * Column does not add to total because of rounding.
                     Source: OIG analysis of MA contract data, 2009.


MAOs decided 18 percent of first-level service appeals late. MAOs must decide standard service
appeals within 30 days and expedited appeals within 72 hours. 39 When MAOs do not meet
specified timeframes for appeals, the outcome is considered adverse to the beneficiary and the
MAO must forward the case to the IRE. 40 Our analysis does not examine whether the MAO
received an extension to the mandated timeframe.

At the second level of appeal, the IRE overturned about one in five adverse MAO
reconsiderations
The IRE received 2,212 service reconsiderations in which the MAO’s adverse organization
determination occurred in the last calendar quarter of 2007. 41 The IRE dismissed 10 percent of
these cases; beneficiaries withdrew their appeal in an additional 4 percent. Our analysis
excluded these withdrawals and dismissals. The IRE reviewed 1,896 service appeals in which it
rendered a decision, and decided in favor of the beneficiary in 19 percent of them. Of these
cases where the IRE overturned the MAO’s decision, appeals for practitioner services
(30 percent) were the most common; clinic, lab, or x-ray services (19 percent) were the second
most common. The IRE decided about 3 percent of service appeals partially adverse to the
beneficiary. See Table 4 for the breakdown of dispositions for second-level appeals.

39 42 CFR §§ 422.590(a)(1), 422.590(a)(2), 422.590(d)(1).
40 42 CFR §§ 422.590(c) and (f).
41 To determine the outcome of IRE reconsiderations, we analyzed data from the MAS. We did not match these

data with data we received from MA contracts. Further, the results of our analysis of MA contracts are projections.
Therefore, the exact number of adverse MAO reconsiderations does not match the number of cases reviewed by the
IRE.


OEI-01-08-00280                                    Beneficiary Appeals in Medicare Advantage
Page 11 – Charlene Frizzera


                  Table 4: Disposition of Second-Level Service Appeals
                                                                         Number
                                                                              of     Percentage
                   Disposition                                           Second-      of Second-
                                                                           Level   Level Appeals
                                                                         Appeals
                   Favorable to member                                       363          19.1%

                   Wholly adverse to member                                1,481          78.1%

                   Partially adverse to member                                52           2.7%

                     Overall total                                        1,896          100%*
                   * Column does not add to total because of rounding.
                   Source: OIG analysis of MAS data, 2009.


IRE staff told us that the most frequent reason they overturn an MAO’s decision is because it
was not in accordance with Medicare coverage requirements. On occasion, IRE reviewers need
additional information from the MAO to render a decision. In the event that an MAO does not
provide requested data, the reviewer typically makes a decision favorable to the beneficiary.

The IRE overturned 25 percent of adverse expedited service reconsiderations, compared with
16 percent of standard service reconsiderations. About 35 percent of the overturned expedited
appeals concerned nursing home care; 23 percent related to clinic, lab, or x-ray services; and
15 percent were for practitioner services.

IRE staff told us that their review process worked well overall, although they did raise some
concerns. When MAOs submit case file data to the IRE, they include a standard form that
includes the type and description of the appeal. In some cases, IRE staff cannot determine from
the form whether a case is a standard or expedited appeal, because the MAO marked both in
different places. In these cases, IRE staff review the entire case file to make an appropriate
determination about the type of appeal.

CMS identified many MA contracts that failed to meet appeals-related audit elements
In 2007, the first year of CMS’s new audit strategy, it audited 106 MA contracts. Its strategy
specified that all routine audits would include all audit elements related to organization
determinations and first-level appeals.

In 2008, CMS adjusted its methodology for selecting contracts to audit, moving from a focus on
contracts to larger managed care entities. For example, rather than auditing a single contract
from a large MAO, CMS’s audit included multiple contracts operated by that MAO. As a result,
CMS almost tripled the number of contracts it audited, auditing 279 MA contracts in 2008. As
in 2007, routine audits in 2008 included all appeals-related audit elements.

Because CMS may not have much data on new contracts, it might not select them for routine
audits until they have been in operation for some time. As a result, staff from one CMS region



OEI-01-08-00280                                Beneficiary Appeals in Medicare Advantage
Page 12 – Charlene Frizzera


told us it holds regular conference calls with MAOs that operate contracts in its purview. The
region uses these calls to identify issues that can lead to a focused audit.

To audit the various elements, CMS regional staff request data from the MAO. Regional staff
we spoke with told us that obtaining accurate, complete data is often a challenge, requiring
multiple requests from CMS. According to one region, the quality of data varies across
contracts, with newer contracts requiring more assistance from CMS. If a contract fails to
provide the requested data, CMS will deem it noncompliant with that audit element.

The content of beneficiary notices was the most commonly unmet audit element regarding
organization determinations, and unmet timeliness elements were the most common for appeals.
In 2007, 68 contracts had at least one unmet appeals-related audit element (64 percent of all MA
contracts audited that year). The three most commonly unmet elements were all related to
organization determinations: the content of beneficiary notices of claim denials (unmet by
41 percent of audited contracts), making correct claim determinations (27 percent), and content
of beneficiary notices of standard preservice denials (25 percent). The most commonly unmet
elements related to reconsiderations addressed timeliness: timeliness of favorable claims
reconsiderations, and of requests for expedited reconsiderations, both unmet by 22 percent of
audited contracts.

In 2008, 197 contracts did not meet at least one appeals-related audit element (70 percent of all
MA contracts audited that year). The most frequently unmet element was again related to
organization determinations: 50 percent of audited contracts did not meet the element for
content of beneficiary notices of claim denials. Other commonly unmet elements for
determinations included timeliness of requests for expedited determinations (unmet by
39 percent of audited contracts), and making correct claim determinations (38 percent).
The most commonly unmet audit elements for reconsiderations all concerned timeliness:
adverse standard preservice reconsiderations (unmet by 39 percent of audited contracts), requests
for expedited reconsiderations (38 percent), and favorable claims reconsiderations
(34 percent). See Table 5 for the 10 most frequently unmet elements in 2007 and 2008.

When a contract does not meet an audit element, it must develop a corrective action plan and
submit it to the CMS regional office for approval. CMS staff told us that, to approve a corrective
action plan, they look for a “credible plan with supporting documentation” that is “workable and
doable.” Once CMS accepts the corrective action plan, the contract must successfully complete
it and submit data to CMS demonstrating improvement.

For example, CMS required one contract that did not meet the audit element for content of claim
denial notices to complete a corrective action plan. The contract had to establish policies and
procedures to ensure that a denial notice is issued each time a claim is denied, train staff on these
policies and procedures, and audit denied claims monthly.




OEI-01-08-00280                        Beneficiary Appeals in Medicare Advantage
Page 13 – Charlene Frizzera


Table 5: Most Frequently Unmet Audit Elements From 2007 and 2008 CMS Audits
                                             Unmet Audit Elements, 2007


                                                                                Number of          Percent of
                                                                            Contracts Not      Contracts Not
                                                                          Meeting Element    Meeting Element
 Audit Element                                                                     N = 106            N = 106

 Claim Denials (Notice Content)                                                        43              40.6%

 Correct Claim Determinations                                                          29              27.4%

 Standard Preservice Denials (Notice Content)                                          26              24.5%

 Favorable Claims Reconsiderations (Timeliness)                                        23              21.7%

 Requests for Expedited Reconsiderations (Timeliness)                                  23              21.7%

 Interest on Clean Claims Paid Late                                                    22              20.8%

 Timely Payment of Noncontractor Clean Claims                                          20              18.9%

 Adverse Standard Preservice Reconsiderations (Timeliness)                             20              18.9%

 Favorable Standard Preservice Reconsiderations (Timeliness)                           20              18.9%

 Adverse Claims Reconsiderations (Timeliness)                                          17              16.0%

                                                 Unmet Audit Elements, 2008


                                                                                Number of          Percent of
                                                                            Contracts Not      Contracts Not
                                                                          Meeting Element    Meeting Element
 Audit Element                                                                     N = 279            N = 279

 Claim Denials (Notice Content)                                                       141              50.5%

 Adverse Standard Preservice Reconsiderations (Timeliness)                            110              39.4%

 Requests for Expedited Organization Determinations (Timeliness)                      108              38.7%

 Requests for Expedited Reconsiderations (Timeliness)                                 107              38.3%

 Correct Claim Determinations                                                         106              38.0%

 Standard Preservice Denials (Notice Content)                                          98              35.1%

 Favorable Claims Reconsiderations (Timeliness)                                        96              34.4%

 Standard Preservice Denials (Timeliness)                                              93              33.3%

 Adverse Claims Reconsiderations (Timeliness)                                          91              32.6%

 Effectuation of Third-Party Expedited Reconsideration Reversals                       53              19.0%

 Source: OIG analysis of CMS audit data, 2009.




OEI-01-08-00280                                        Beneficiary Appeals in Medicare Advantage
Page 14 – Charlene Frizzera


CONCLUSION

We found that MAOs decided the vast majority of organization determinations in favor of
beneficiaries, and that MAOs overturned more than half of their own denials upon appeal. We
also found that MAOs decided 18 percent of first-level appeals late. Our review also showed
that CMS audits have identified many MA contracts that did not meet its timeliness standards for
determinations and first-level appeals.

However, our review raises questions and concerns. We found that beneficiaries appealed fewer
than 1 in 10 adverse organization determinations. Although no rate of appeal is expected or
correct, further study could examine factors that might explain this rate. For example, some
beneficiaries may be unaware of their right to appeal an adverse determination. This concern is
reflected in CMS’s audit findings, which showed that many MAOs failed to use CMS-approved
notices when informing beneficiaries of a service denial. These notices are important because
they inform beneficiaries why the MAO denied their request and how to file an appeal. Further
study could also identify differences between denied requests that beneficiaries appeal and those
that beneficiaries do not appeal.

Particularly concerning are the problems with timeliness in processing adverse expedited
determinations and the higher IRE overturn rate of expedited cases. Because expedited cases
concern time-sensitive care, it is important that such care be delivered with minimal delays.

This report is being issued directly in final because it contains no recommendations. If you have
comments or questions about this report, please provide them within 60 days. Please refer to
report number OEI-01-08-00280 in all correspondence.




OEI-01-08-00280                       Beneficiary Appeals in Medicare Advantage
Page 15 – Charlene Frizzera


APPENDIX A

Table A-1: Confidence Intervals
                                                                                                                    95-Percent Confidence
                                                                                                                           Interval

                                                                                                           Point      Lower        Upper
 Variable                                                          Unweighted N            Weighted N   Estimate      Bound        Bound
   Outcome of Service Requests, Percentage
                                                                        1,751,010           3,196,469      97.8%       97.2%        98.4%
   Favorable to Member

   Outcome of Service Requests, Percentage Partially
                                                                            35,450             73,023       2.2%        1.7%         2.8%
   Or Fully Adverse to Member

   Type of Adverse Service Requests, Percentage
                                                                            32,587             67,944      93.0%       90.4%        95.7%
   Standard Service Denials

   Type of Adverse Service Requests, Percentage
                                                                             2,863              5,079       7.0%        4.3%         9.6%
   Expedited Service Denials

   Timeliness of Adverse Service Requests,
                                                                             2,284              4,051      76.9%       69.6%        84.3%
   Percentage Expedited Decided Timely

   Timeliness of Adverse Service Requests,
                                                                               771              1,215      23.1%       15.7%        30.4%
   Percentage Expedited Not Decided Timely

   Timeliness of Adverse Service Requests,
                                                                            33,686             68,214      96.1%       95.3%        97.0%
   Percentage Standard Decided Timely

   Timeliness of Adverse Service Requests,
                                                                             1,803              2,746       3.9%        3.0%         4.7%
   Percentage Standard Not Decided Timely

   Timeliness of Adverse Service Requests,
                                                                               553               705       25.7%       22.8%        28.5%
   Percentage Standard 16 Days Late

   Outcome of Reconsiderations, Percentage
                                                                             1,284              2,966      54.1%       45.8%        62.5%
   Favorable to Member

   Outcome of Reconsiderations, Percentage Partially
                                                                                 40               84        1.5%        0.7%         2.4%
   Favorable to Member

   Timeliness of Reconsiderations, Percentage Service
                                                                               395               991       18.2%        7.7%        28.7%
   Reconsiderations Not Decided Timely

   Count of Service Requests, Total Number of
                                                                        1,786,460                   -   3,269,492   2,483,317    4,055,667
   Service Requests

   Count of Service Requests, Number of Service
                                                                            46,158                  -    396,959      -47,091      841,009
   Requests Processed by Low Enrollment Plans

   Count of Service Requests, Number of Service
                                                                           471,763                  -   1,603,994    857,125     2,350,863
   Requests Processed by Medium Enrollment Plans

   Count of Service Requests, Partially or Fully
                                                                            35,450                  -     73,023      56,039        90,007
   Adverse to Member
   Count of Reconsiderations, Total Number of
   Reconsiderations Processed by Medicare                                    2,630                  -      5,478       4,096         6,859
   Advantage Organizations
 Source: Office of Inspector General analysis of Medicare Advantage contract data, 2009.




OEI-01-08-00280                                         Beneficiary Appeals in Medicare Advantage
